OIG Investigative Reports, Press Release: Clearfield, PA November 19, 2009 - Clearfield Woman Charged with Fraudulent Receipt of Student Aid
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
United States Attorneys Office
Western District of Pennsylvania
For Immediate Release: November 17, 2009
CLEARFIELD WOMAN CHARGED WITH FRAUDULENT RECEIPT OF STUDENT AID
Acting United States Attorney Robert S. Cessar announced today, November 17, 2009, that Kimberly A. Kovall of Clearfield, Pennsylvania, has been indicted by a federal grand jury in Johnstown on a charge of fraudulent receipt of federal student aid funds.
The one-count indictment named Kovall, age 46, as the sole defendant..
According to the indictment presented to the court, on February 26, 2007, Kovall fraudulently obtained federal student aid benefits valued at more than $200.
Assistant United States Attorney John J. Valkovci, Jr., who presented the case to the grand jury, indicated that the law provides for a maximum total sentence of five years in prison, a fine of $ 250,000, or both.  Under the Federal Sentencing Guidelines, the actual sentence imposed would be based upon the seriousness of the offense and the prior criminal history, if any, of the defendant.
The United States Department of Education/Office of Inspector General conducted the investigation leading to the indictment in this case.
An indictment is only a charge and is not evidence of guilt.  A defendant is presumed innocent and is entitled to a fair trial at which the government must prove guilt beyond a reasonable doubt.
# # #
Top
Printable view
Last Modified: 11/19/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov